APPLICATION FOR CREDIT

Valid from 01.31.2019 thru 07.31.2019

350BVSFBE3

After submitting the application, please fax this document immediately to 800-215-8360 or mail to PO Box 708670, Sandy, UT 84070
For help processing the application, please call 800-548-5545.

PRINT YOUR NAME

FIRST

MIDDLE

LAST

DOB MM/DD/YYYY

Social Security Number

Primary Phone # with Area Code

We will use the contact information you provide to us. You consent to us contacting you using all channels of communication and for all purposes.
This may include text messages, automatic telephone dialing systems and/or an artificial or prerecorded voice. This consent applies even if you are
charged for the call under your phone plan. You are responsible for any charges that may be billed to you by your communications carrier when
we contact you.
Physical Address

City or Town

State Zip

Mailing Address if different than Physical

City of Town State Zip

Employment & Financial Information –
Alimony, child support or separate maintenance need not be revealed if you do not wish to
have it considered as a basis for repaying this obligation
Total Net Monthly Income

Residential Status (select one)
RENT

Employer Name

OTHER

YEARS

FIRST

MIDDLE

Monthly Rent or Mortgage

MONTHS

Employer Phone # with Area Code

Information Regarding Co-Applicant
PRINT YOUR NAME

MORTGAGE

Time at current address

Email Address (optional)

(When you furnish Co-Applicant information and sign below, you indicate your intent to apply for joint credit)
DOB MM/DD/YYYY

LAST

Social Security Number

Primary Phone # with Area Code

We will use the contact information you provide to us. You consent to us contacting you using all channels of communication and for all purposes.
This may include text messages, automatic telephone dialing systems and/or an artificial or prerecorded voice. This consent applies even if you are
charged for the call under your phone plan. You are responsible for any charges that may be billed to you by your communications carrier when
we contact you.
Physical Address

City or Town

State Zip

Employer Name

Mailing Address if different than Physical

Employer Phone # with Area Code

City of Town State Zip

Email Address (optional)

Co-Applicant Alimony, child support or separate maintenance need not be revealed if you do not wish to have it considered as a basis for repaying this obligation. If you
apply with a joint applicant, each of you will be jointly and individually responsible for obligations under the agreement and by signing below; you each agree that you
intend to apply for joint credit.
Total Net Monthly Income

Residential Status (select one)
RENT

MORTGAGE

Time at current address

Monthly Rent or Mortgage

OTHER

IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT – To help the government fight the funding of terrorism and
money laundering activities, Federal law requires all financial institutions to obtain, verify, and record information that identifies each person who opens
an account. What this means for you: When you open an account, we will ask for your name, address, date of birth and other information that will allow
us to identify you. We may also ask to see your driver’s license or other identifying documents.
PLEASE SIGN THIS FORM FOR AUTHORIZATION: By signing below, each Applicant and Co-Applicant shown above (“you” and “your”) agrees that:
(1) the information provided in this application is true, correct, and complete; (2) you are requesting that First Electronic Bank issue a HELPcard
credit card to you; (3) you are a U.S. resident at least 18 years old; (4) you authorize First Electronic Bank, its designated service provider
(HC Processing Center), and its assigns to investigate and verify your creditworthiness (including your employment and salary information);
(5) you authorize First Electronic Bank, HC Processing Center, and its assigns, to obtain consumer reports about you in connection with this
credit application and for the purposes of updating, reviewing, servicing, and collecting any credit card account you may receive as a result of this
application; and (6) upon your request, you will be informed whether your consumer report was requested and provided with the name and address
of any consumer reporting agency that furnished a consumer report about you.
TRUTH IN LENDING DISCLOSURE Do not sign without reading. The information about the costs of the card described in this application is accurate as
of January 2019 This information may have changed after that date. To find out what may have changed call us at 877-486-3442, or write to
HC Processing Center, P.O. Box 708670, Sandy, UT 84070.
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT
If you are married, you can still apply for a separate account in your own name. If you are married and reside in a community property state the assets
of your marital community may be liable on this account even if you apply for an individual account and this application is not signed by your spouse
(unless you mail a signed statement to HC Processing Center that you wish to apply for a separate account based solely on your separate assets).
New York: Residents may contact the New York Department of Financial Services at 877-226-5697 to obtain a comparative listing of credit card rates,
fees and grace periods.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all credit worthy customers, and that
credit reporting agencies maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance
with this law.
Wisconsin Residents: No provision of a marital property agreement, a unilateral statement, or a court decree adversely affects the interest of the
creditor, unless the creditor, prior to the time the credit is granted, is furnished a copy of the agreement, statement, or decree or has actual knowledge
of the adverse provision when the obligation to the creditor is incurred. If I am a married Wisconsin resident and my spouse is not applying with me for
a joint account, I agree to send the name and address of my spouse to HC Processing Center, Attn: Credit Card Care, PO Box 708670, Sandy, UT 84070-8670
within 15 days after I submit my application, so that my spouse may receive account information required by Wisconsin law
350BVSFBE3
Print Applicant Name
Signature of Applicant

Print Co-Applicant Name
Date

Signature of Co-Applicant

Date

Terms & Conditions

TRUTH IN LENDING DISCLOSURE: The information about the costs of the card described in this application is accurate as of January 2019. This
information may have changed after that date. To find out what may have changed, call us at 877-486-3442 or write to: HC Processing Center, P.O.
Box 708670, Sandy, UT 84070.

Interest Rate and Interest Charges
Annual Percentage Rate (APR) for
Purchases

29.99% This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date and no Previous Balance
existed.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
www.consumerfinance.gov/learnmore.

Fees
Annual Fees

$59

Penalty Fees:
• Late fee
• Returned payment fee

Up to $39
Up to $39

How We Calculate Your Balance Subject to Interest Rate: We use a method called “Daily Balance (Including Current Transactions).” See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
CARDHOLDER AGREEMENT
This Cardholder Agreement contains the general terms and conditions that will govern your credit card account (the “Account”), and the credit card
we issue for Account access (the “Card”), if we approve your application for an Account. The Account application you signed or otherwise submitted
to us (including its federal and state notices), and any written materials we may provide with your Card or as a supplement or amendment to this
Cardholder Agreement, are part of and incorporated into this Cardholder Agreement by reference (together, our “Agreement” with you).
In this Agreement, the words "you" and "your" mean each applicant (as an individual) and all applicants (as a group) shown on the Account
application, and anyone else you authorize or permit to use your Account. The words "we," "us," and "our," mean First Electronic Bank, the financial
institution that provides the Account and issues the Cards, and its assigns and successors. When the Agreement states that we “may” take an
action, this means that we are allowed and have the sole discretion to take that action, subject only to any limitations or notices expressly required by
law or this Agreement. You accept and agree to be bound by all terms and conditions in this Agreement, including its arbitration provision,
the first time any of you use your Account.
Oral agreements or commitments to loan money, extend credit or to forbear from enforcing repayment of a debt, including promises to extend or
review such debt, are not enforceable. To protect you (borrower(s)) and us (creditor) from misunderstanding or disappointment, any agreements we
reach covering such matters are contained in this writing, which is the complete and exclusive statement of the agreement between us, except as we
may later agree in writing to modify it.
1. USE OF CARD: Subject to the terms and conditions in the Agreement, you may use your Account to purchase goods and services from the
merchants and providers (each, a “Participant”) that have agreed to participate in the credit card program we provide with assistance from Dent-AMed, Inc. d/b/a HC Processing Center. Before you attempt or agree to use the Account and Card to purchase any goods or services on credit from a
Participant, you must notify the Participant that you intend to charge your purchase to your Card and obtain the Participant’s approval for the Card
purchase. We will not extend Account credit to you for any purchase, unless you notified and obtained approval from a Participant for that purchase.
We will not be liable to you if a participant or any merchant refuses to honor your Account and Card for any purchase. The Participant will prepare
and submit a charge slip to us for Account purchases or submit an Account charge to us electronically for payment.

Page 1 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

2. ACCOUNT BILLING STATEMENTS AND NOTICES; ADDRESS ON FILE: If you have a credit or debit balance on the Account of $1 or more at
the end of any billing period, we will send a periodic Account statement (a “bill”) showing what you owe us as of the end of that billing period. We
may not send you a bill, however, if we have decided your Account is uncollectible, if we have sent the Account for collection proceedings against
you, or if the law does not require or permit us to send the bill. The billing period is the fixed period of time covered by the bill we send you. Each bill
that we send will identify the billing period that it covers. The bill will show your new charges, including interest and fees, and any payments that
posted to your Account during that period. It will also show you the minimum payment you must make to us by the due date shown on the bill. You
agree to examine each bill and notify us immediately of any item you may dispute. The billing error rights notice in this Agreement and on your bills
provides more information about how you may notify us about any disputed items or billing errors. We will mail or deliver your bill only to one
address.
If your Account is a joint Account or more than one person is permitted to use the Account, you agree that we may send all Account bills and other
Account notices solely to your address on file, as shown in our billing records. Your address on file is the address you provided in your Account
application, unless: (a) we have received and processed a notice of a change in address that you provided in accordance with this Agreement or
your most recent bill; or (b) we are notified by the U.S. Postal Service of an address correction for you and we decide, in good faith, to rely on the
address correction notice we receive from the Postal Service. You agree to notify us immediately of any change in your mailing address, telephone
numbers, or other contact information, such as your email addresses.
3. BALANCE CATEGORIES: We put each charge on your Account, including interest and fees, into a balance category. We use the different
balances to calculate the correct interest charges on your Account. If any type of charge is subject to a separate promotional interest rate, deferred
interest, and/or reduced or deferred payment requirements (each, a “Promotional Balance”) we will put the Promotional Balance into a separate
balance for the time period you qualify for the special promotional terms (“Promotional Terms”).
4. AUTHORIZED USERS AND AUTHORIZED CHARGES: If you give your Card or Account number to another person, he or she is an authorized
user. An authorized charge is any charge you or any authorized user makes on the Account, and any fees and interest charges owing on the
Account. Any charge made by an authorized user is an authorized charge. This is true even if you told the authorized user not to make that specific
charge. A charge will still be authorized, even if it causes your Account to exceed its credit limit, is an illegal transaction, or is made after your
Account is closed. An authorized charge can be made over the telephone, in person, on the Internet, or in any other way your Account can be used.
5. PAYMENTS
A. Promise to Pay: You agree to pay all authorized charges on each bill, including interest and fees. You agree to pay us for any charges that we
allow over your Account credit limit. You promise to pay at least the minimum payment by the due date shown on each bill.
B. Payment Due Date; Payment Requirements: The due date is the date by which we must receive your payment for it to be on time. Your bill lists
the due date, which will fall on the same calendar day of the month. Your due date will be at least 21 days from the date we send you the bill and at
least 25 days from the end of the most recently ended billing period. To be on time, we must receive your payment on or before the due date at the
place and by the time stated on your bill. Unless a bill states a different place for payments, your payments must be sent to: HC Processing Center,
P.O. Box 268808, Oklahoma City, OK 73126 (regular mail); or HC Processing Center, 380 Data Drive, Suite 200, Draper, UT 84020 (overnight
courier). Unless a bill states a different time, your payment is on time if we receive it by 5:00 p.m. Central Time on the due date. This 5:00 p.m.
deadline is measured by the time zone in which we receive the payment, which may not be your time zone. If we do not receive or accept payments
by mail on the due date, your payment will be on time if it is received by the next day that we accept or receive payments by mail.
You must pay in U.S. dollars. You must not pay in cash. Your payment must be drawn on a U.S. deposit account or by a cashier’s check drawn on a
U.S. bank or a foreign bank branch in the U.S. You must not attach or include any restrictive language to your payment. Any check or money order
you send that has restrictive words, conditions, limitations, or special instructions to us, including those marked with words “paid in full”
or similar language, must be mailed to: HC Processing Center, P.O. Box 708670, Sandy, UT 84070. If you make payments in a paper form
(such as check, money order, or cashier’s check), you must include the payment coupon from your bill or write your Account number on the
payment. If we decide, in our discretion, to accept a form of payment that does not meet these payment instructions, you agree that we are not
waiving our right to require you to make or continue making payments that comply with these instructions and are otherwise required by the
Agreement. The credit available on your Account will be increased by the amount of your payment within 14 days after we receive your payment.
You can also make a Payment or set up automatic payments by calling 1-877-486-3442. Automatic payments for the billing period shown on your
statement will be deducted on the Payment Due Date shown on that statement, or the next automatic payment date referred to on your statement,
unless you request a recurring payment date that occurs before your Payment Due Date. If your scheduled payment date falls on a Sunday or
bank holiday, your payment will be processed the business day prior to the weekend or bank holiday. In order to schedule monthly payments
by telephone, you will need this statement and your bank account information. You will be asked to provide the last four (4) digits of your social
security number as your electronic signature. By providing those numbers, you will be agreeing to the authorization to allow us and your bank to
deduct each authorized payment, in the amount selected by you, from your bank account. You also authorize us to initiate debit or credit entries to
your bank account, as applicable, to correct an error in the processing of such payment. You can cancel a scheduled payment by phone at 1-877486-3442 or by mail at HC Processing Center, PO Box 708670, Sandy, UT 84070; payment cancellations must be received before 5 PM CT of the
scheduled withdrawal date.

Page 2 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

C. Minimum Payment: The bill we send to you will state your due date and the minimum amount you must pay by that due date (your “minimum
payment” or the “minimum payment due” in this Agreement and on your bill). If you do not pay the minimum payment by its due date, we may charge
you a late payment fee. You will also be in breach of this Agreement. You may pay all or part of your Account balance at any time. However, for each
bill, you must pay at least the minimum payment by the due date stated on the bill. If any Promotional Terms apply that modify the payment
requirements with respect to a Promotional Balance, then those Promotional Terms will explain how we determine the minimum payment due with
respect to these Promotional Balances.
As of the end of the billing period covered by the bill, we start by determining the amount that is the greater of: (i) the full unpaid balance of your
Account, if this is less than $25.00; (ii) $25.00, if the balance is at least $25.00; (iii) 3.5% of the Highest Balance (excluding any Promotional
Balances whose Promotional Terms make those Promotional Balances subject to different payment requirements). Then, we determine the
minimum payment due for any Promotional Balances whose Promotional Terms modify the payment requirements for these Promotional Balances;
or (iv) the sum of 1.0% of the Highest Balance (excluding any Promotional Balances whose Promotional Terms make those Promotional Balances
subject to different payment requirements), plus all interest charges, late payment fees, and returned payment fees then due for the Account. Then,
we determine whether there are any Account payments that are past due or balances that exceed the credit limit of your Account. Finally, we
calculate your minimum payment due by adding together all the amounts described in this paragraph and rounding the result up to the nearest whole
dollar. If you pay more than the minimum payment due after the end of any billing period, you must still pay at least the minimum payment due after
the end of each billing period after that.
D. Payment Allocation: We choose which Account balances to pay with your minimum payment. We generally apply payments above the minimum
payment to balances with the highest APRs first, except that we may apply the part of your payment that exceeds the minimum payment first to any
deferred interest balances during the last two billing periods of a deferred interest period.
6. TYPES OF CHARGES: There are two types of charges or “Plans” under your Account: you may make a purchase on (a) the Regular Plan or (b) a
Promotional Plan. The standard provisions of this Agreement apply to all Promotional Plan transactions unless otherwise specified prior to or at the
time of purchase under a particular Promotional Plan offering, and will continue to apply to any and all transactions that are not subject to a
Promotional Plan. The following Promotional Plan may be offered from time to time as specified prior to or at the time of purchase: Deferred Interest
(a) Monthly Payment Plan – If you pay the full cash sales price of the purchase by the promotional due date, as indicated on your billing
statement, and pay the Minimum Payment Due when due each billing cycle, as indicated on your billing statement, no interest charges will
be imposed on the purchase. If such payments are not so made, interest charges will be imposed from the purchase date. (b) Reduced
Interest Monthly Payment Plan – If you pay the full cash sales price of the purchase by the promotional due date, as indicated on your
billing statement, and pay the Minimum Payment Due when due each billing cycle, as indicated on your billing statement, reduced interest
charges will be imposed on the purchase. If such payments are not made, the fully indexed APR will be imposed from the default date
forward.
7. INTEREST RATES AND INTEREST CHARGES:
A. APRs Applied to Different Balances: The “annual percentage rate” or “APR” is an annualized interest rate. We use the APR that applies to each
balance to calculate the interest charges that you owe us on the Account. Different APRs may apply to different balances on your Account, such as
purchases subject to the standard APR and any qualifying purchases we may allow you to make subject to deferred interest or a promotional APR.
B. Variable APRs: All your Account APRs are variable, unless we specifically state that a non-variable APR applies in connection with a deferred
interest or promotional APR program. Variable APRs increase or decrease based on changes in the Prime Rate. For the Prime Rate, we use the
U.S. Prime Rate that The Wall Street Journal publishes on the Friday that follows the last Thursday of each month (the “Determination Date”). If The
Wall Street Journal no longer publishes a Prime Rate, we will use a similar published rate that we choose as a substitute. Any increase or decrease
to a variable APR based on a change in the Prime Rate will apply to your Account balances and purchases as of the first day of the billing period that
begins after a Determination Date. Any increase in an APR that applies to your Account may cause an increase to your minimum required monthly
payment.
C. Standard APR: We determine your standard APR by adding a margin of 24.49 percentage points to the Prime Rate. Currently, the standard APR
of 29.99% applies to your account (corresponding to a Daily Periodic Rate of 0.082164%).
D. Use of Daily Balance Method with Compounding: We calculate the interest charge on your account by applying the “daily periodic rate” for
that balance to the “daily balance” of that balance. We do this for each day in the billing period and add together the resulting interest charges. That
gives us the total interest charges for that balance for that billing period. You agree that we may round interest charges to the nearest cent.
The “daily periodic rate” is a daily interest rate. The daily periodic rate for a given balance is equal to the APR for that balance divided by 365.
We calculate the “daily balance” for each balance. We do this by starting with the beginning amount of that balance for each day. We add any new
purchases and Account fees for that day, add any interest on the previous daily balance if there is one in that billing period, and subtract any
payments or credits. This gives us the “daily balance.” The addition of the prior day’s interest to the daily balance calculation causes interest to
compound daily. We add all Account fees and minimum interest charges to the daily balance of purchases subject to the standard APR. Any daily
balance that is less than zero will be treated as zero. Each “Balance Subject to Interest Rate” shown on your bill will be an average of the daily
balances during the billing period for that balance.

Page 3 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

E. When Interest Charges Begin; Grace Period: The “New Balance” of your Account is the full unpaid balance of your Account that is outstanding
as of the end of each billing period covered by each bill. As long as you continue to pay the New Balance every month by the due date listed on your
bill, there will be a grace period on your Account purchases and we will not charge interest on those purchases. If you do not pay by the due date the
New Balance that is outstanding as of the end of a given billing period, there will be no grace period and you will owe interest on the unpaid Account
balances from the end of that billing period. After the end of that billing period, all charges will accrue interest from the date they were made. To take
advantage of the grace period again, you must pay your New Balance in full, make no new purchases, and pay on time for as much as two billing
periods in a row.
F. Minimum Interest Charges: You must pay a minimum of $2.00 of interest after any billing period in which you owe any interest charges.
8. FEES:
A. Annual Fee: In the first billing period your Account has a purchase, we will charge a $59.00 annual fee to your Account. Thereafter you will be
charged this annual fee on or about the anniversary of the first charge to your Account (your “Anniversary Date”), so long as your account has an
unpaid balance or remains open for new purchases. We will notify you about this annual fee before each Anniversary Date. Our notice will explain
when and how you may close your Account to future purchases and pay the full unpaid balance if you do not want to be charged this annual fee on
an Anniversary Date.
B. Returned Payment Fee: If your payment is returned unpaid to us for any reason, we will charge up to a $28.00 returned payment fee to your
Account. If your payments are returned unpaid more than once during any six-month period, we will charge up to a $39.00 returned payment fee to
your Account. After that, your returned payment fee will not return to $28.00 until you make Account payments required by the Agreement that are
paid in full for six consecutive months.
C. Late Payment Fee: If you do not pay at least the minimum payment due by its due date, we will charge a $28.00 late payment fee to your
Account. If you do not pay the minimum payments due by their due dates more than once during any six-month period, we will charge a $39.00 late
payment fee to your Account. After that, your late payment fee will not return to $28.00, until you make at least the minimum payment due by its due
date for six consecutive months.
D. Additional Account Fees: We will charge additional fees to your Account for certain services that you may request in connection with your
Account. The additional fees we may charge to your Account for Account services include, but are not limited to, the following: a $10.00 per page fee
for copies of documents unrelated to a billing error; a $5.00 fee to issue a replacement Card; a $9.95 expedited payment fee each time you request
expedited assistance from our live customer service representative or agent to make an automated payment of your Account; and a $15.00
expedited service fee each time you request expedited assistance from us for reasons other than completing an Account payment (for example, to
request an Account balance or payoff letter from us within three business days). You may contact us at 877-486-3442 at any time with questions
about these and other Account services, or to request a schedule of other Account fees that we may require for particular services that are not listed
here.
9. CREDIT LIMIT: We will establish a credit limit for your Account. We may increase or decrease your Credit Line without notice. We may delay
increasing your available credit by the amount of any payment that we receive for up to 14 days. You agree that you will not use or permit others
to use your Account to obtain credit if it would cause the outstanding balance of your Account to exceed its credit limit. However, we may, at our
option, without waiving any of our rights, permit charges to your Account, even if those charges would cause your outstanding Account balance to
exceed its credit limit. We will not assess a fee if we elect to honor charges that cause your Account to exceed its credit limit.
10. ENTIRE BALANCE DUE: If you break your promises under this Agreement, you understand and agree that we may demand that you pay the
entire outstanding balance of your Account at once, subject to any legally required notices and limitations of applicable law. We may also do this if
you made any false or misleading statements on your application, if you become insolvent or are subject to bankruptcy proceedings, or if you die, to
the extent permitted by and in accordance with applicable law.
11. COLLECTION COSTS: To the extent permitted by law, you promise to pay all the costs we incur to collect your Account, including reasonable
and allowable attorney’s fees.
12. JOINT ACCOUNTS: If this is a joint Account, each of you is responsible as an individual and all of you are responsible as a group for all amounts
that are owed in connection with the Account. Each of you is responsible, even if the Account is used by only one of you. You will continue to be
liable for the entire balance of the Account, even if your co-applicant or co-borrower is ordered by a court to pay us. You will remain liable to us if
your co-applicant or co-borrower fails to pay as ordered by the court. Your Account status will continue to be reported to the credit bureau under
each of your names. The delivery of Account notices or bills to any of you serves as delivery of those notices and bills to all of you. We may rely on
and comply with instructions given by any of you with respect to the Account. We are not liable to any of you for relying on or complying with
instructions given by any of you.
13. NOTICES, CHANGES OF ACCOUNT INFORMATION, AND METHODS OF CONTACT: If we need to contact you to service your Account or to
collect amounts you owe us, you authorize us (and our affiliates, agents, and contractors) to contact you at any number (i) you have provided to us, (ii)
from which you called us, or (iii)at which we believe we can contact you. . We may obtain address corrections from the U.S. Postal Service and
telephone numbers and other contact information from third party sources. You also authorize us to send emails to an email address at which we
have reason to believe you can be reached. You consent to us, as well as any other owner or servicer of your account, contacting you through any

Page 4 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

channel of communication and for any purpose, as permitted by applicable law. For informational, servicing or collection related communications,
you agree that we may use the phone numbers that you provide to us, or numbers from which you called us, to contact your cellular phone or
wireless device with text messages, artificial or prerecorded voice calls, and calls made by an automatic telephone dialing system. This consent
applies even if you are charged for the call under your phone plan. You are responsible for any charges that may be billed to you by your
communications carriers when we contact you.
14. TELEPHONE MONITORING: You agree that we (and our affiliates, agents, and contractors) may monitor or record any calls between you and us.
15. INVALIDITY: If one or more provisions of the Agreement are declared invalid or unenforceable by a court or arbitrator with jurisdiction, you and
we agree that the remaining conditions and terms will not be affected.
16. CHANGING OUR AGREEMENT: Subject to notice requirements and limitations of applicable law, we may change the terms of this Agreement
at any time, and the new terms that apply to your Account will take effect on the day we specify. If the law requires us to notify you in a certain way,
or limit the effect of any change in Account or Agreement terms, we will comply.
17. AUTHORIZATION FOR RELEASE OF CREDIT INFORMATION: We may report information about your Account to credit bureaus. Late
payments, missed payments, or other defaults on your Account may be reflected in your credit report. Tell us if you think we reported wrong
information about you to a credit bureau. Write to us at HC Processing Center, P.O. Box 708670, Sandy, UT 84070. Tell us what information is
wrong and why you think it is wrong. If you have a copy of the credit report that includes the wrong information, send us a copy.
18. ASSIGNMENT: We have the right to assign and transfer any amounts you owe us in connection with the Account and any of our rights under this
Agreement. We assign this Agreement if we sell or pass to a third party any or all our rights or obligations under the Agreement, including any
amount that you owe under the Agreement. Depending on what we may assign, any party to which we assign this Agreement will enjoy all our rights
under the Agreement, including the contractual rights to collect amounts you owe on the Account. You cannot assign or transfer this Agreement or
any of your rights or duties to anyone else.
19. LOST OR STOLEN; LIABILITY FOR UNAUTHORIZED USE: If you notice the loss or theft of your Card or a possible unauthorized use of your
Card, you should write to us immediately at HC Processing Center, P.O. Box 708670, Sandy, UT 84070, or call us at 877-486-3442. You will not be
liable for any unauthorized use that occurs after you notify us. You may, however, be liable for unauthorized use that occurs before your notice to us.
In any case, your liability will not exceed $50.
20. RESPONSIBILITY FOR GOODS OR SERVICES: We are not responsible for goods or services you purchase using your Account except to the
extent required by applicable law.
21. REFUNDS FOR GOODS OR SERVICES: Refunds for goods and services are governed by Participant. Any refunds for goods or services
purchased from a Participant through an extension of credit on your Account will be issued as a credit adjustment to your Account.
22. CANCELLATION: We may cancel, suspend, or not renew your Account at any time without notice. Specifically, inactivity for 12 months may
result in cancellation. If cancelled, you promise to destroy all Cards immediately. We may terminate or modify all or any part of your Card
privileges at any time. You have the right to close your Account to future purchases at any time, if you send a written cancellation notice to: HC
Processing Center, P.O. Box 708670, Sandy, UT 84070. Even if you close your Account to future purchases, you must pay all outstanding
amounts on the Account and your Account will remain subject to interest and fees as provided in this Agreement until it is paid in full.
23. INFORMATION SHARING: You authorize us to share information about you as permitted by law. This includes information we get from you and
others. It also includes information about your transactions with us. Please see our Privacy Notice for details about our information sharing practices.
24. GOVERNING LAW: This Agreement and all transactions under it will be governed by the laws of the State of Utah, which are expressly adopted
to control all Account transactions, without regard to choice-of-law principles.
25. ARBITRATION: THIS PROVISION WILL NOT APPLY TO YOUR ACCOUNT IF YOU ARE A “COVERED BORROWER” AS DEFINED IN THE
MILITARY LENDING ACT. All OTHERS, PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL
APPLY TO YOUR ACCOUNT, AND MOST DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS
MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE
IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE
LIMITED.
A. What claims (including initial claims, counterclaims, cross-claims, and third-party claims) are subject to arbitration:
i. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you or any other user of your account,
and us, our affiliates, agents and/or dealers/merchants/retailers that accept the card or program sponsors if it relates to your account, except as
noted in this section below.
ii. We will not require you to arbitrate: any individual case in small claims court or your state’s equivalent court, as long as it remains an individual
case in that court.

Page 5 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

iii. Notwithstanding any other language in this section, only a court, not an arbitrator, will decide disputes about the validity, enforceability, coverage
or scope of this section or any part thereof (including, without limitation, the next paragraph of this section and/or this sentence). However, any
dispute or argument that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator, not a court, to decide.
B. NO CLASS ACTIONS: YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTION
AGAINST US IN COURT OR ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS (INCLUDING INITIAL CLAIMS, COUNTERCLAIMS,
CROSS-CLAIMS AND THIRD-PARTY CLAIMS) AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT AN ACCOUNTHOLDER
ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED IN A SINGLE
ARBITRATION WITH ANY CLAIM YOU HAVE.
If a court determines that this paragraph is not fully enforceable, only this sentence will remain in force and the remainder will be null and void, and
the court’s determination shall be subject to appeal. This paragraph does not apply to any lawsuit or administrative proceeding filed against us by a
state or federal government agency even when such agency is seeking relief on behalf of a class of borrowers, including you. This means that we
will not have the right to compel arbitration of any claim brought by such an agency.
C. How to start an arbitration, and the arbitration process
i. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit or in papers filed in
the lawsuit. Otherwise, your notice must be sent to HC Processing Center, P.O. Box 708670, Sandy, UT 84070, ATTN: ARBITRATION DEMAND.
The party seeking arbitration must select an arbitration administrator, which can be either the American Arbitration Association (AAA), 1633
Broadway, 10th Floor, New York, NY 10019, www.adr.org, (800) 778-7879, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018,
www.jamsadr.com, (800) 352-5267. If neither administrator is able or willing to handle the dispute, then the court will appoint an arbitrator.
ii. If a party files a lawsuit in court asserting claim(s) that are subject to arbitration and the other party files a motion with the court to compel
arbitration, which is granted, it will be the responsibility of the party asserting the claim(s) to commence the arbitration proceeding.
iii. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least 10
years of legal experience. Once appointed, the arbitrator must apply the same law and legal principles, consistent with the Federal Arbitration Act
(FAA), that would apply in court, but may use different procedural rules. If the administrator’s rules conflict with this Agreement, this Agreement will
control.
iv. The arbitration will take place by phone or at a reasonably convenient location. We will always pay arbitration costs, as well as your legal fees and
costs, to the extent you prevail on claims you assert against us in an arbitration proceeding which you have commenced.
D. Governing Law for Arbitration
This Arbitration section of your Agreement is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA. The
arbitrator’s decision will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter judgment upon the
arbitrator’s award.
E. Pre-Dispute Resolution Procedure
Before you or we bring any dispute or claim, the complaining party shall give the defending party: (i) a claim notice providing at least 30 days’ written
notice of the claim and explaining in reasonable detail the nature of the claim and any supporting facts; and (ii) a reasonable, good-faith opportunity
to resolve the claim on an individual basis without the necessity of any proceeding. If you are the complaining party, you must send any claim notice
to us at HC Processing Center, Legal Department, P.O. Box 708670, Sandy, UT 84070. If we are the complaining party, we will send the claim
notice to you at your address appearing in our records or, if you are represented by an attorney, to your attorney at his or her office address. If the
complaining party and the defending party do not reach an agreement to resolve the claim within 30 days after the claim notice is received, the
complaining party may commence an arbitration subject to the terms of this Arbitration section of your Agreement. No settlement demand or
settlement offer may be used in any proceeding as evidence or as an admission of any liability or damages.
F. Special Payment
If: (i) you submit a claim notice in an arbitration on your own behalf (and not on behalf of any other party) and comply with all the requirements of this
Arbitration section of your Agreement; (ii) we refuse to provide you with the money damages you request; and (iii) the arbitrator issues you an award
that is greater than the latest money damages you requested at least 10 days before the date the arbitrator was selected, then we will pay you the
amount of the award or $7,500, whichever is greater, in addition to the attorneys' fees and expenses (including expert witness fees and costs) to
which you are otherwise entitled. We encourage you to include all claims you have in a single claim notice and/or a single arbitration. Accordingly,
this $7,500 minimum award is a single award that applies to all claims you have asserted or could have asserted in the arbitration, and multiple
awards of $7,500 are not contemplated under this Arbitration section of your Agreement.
G. TO REJECT THIS SECTION:
You may reject this Arbitration section of your Agreement. If you do that, only a court may be used to resolve any dispute or claim. To
reject this section, you must send us a notice within 60 days after you open your account or we first provided you with your right to reject
this section. The notice must include your name, address and account number, and must be mailed to HC Processing Center, Legal
Department, P.O. Box 708670, Sandy, UT 84070. This is the only way you can reject this section.

Page 6 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

26. NOTICE FOR ACTIVE DUTY MILITARY MEMBERS AND THEIR DEPENDENTS: The following disclosures apply to you if you open your
Account on or after October 3, 2017 and, at the time your account is opened, you are a “covered borrower” as defined in the Military Lending Act,
which includes eligible active duty members of the Armed Forces and their dependents:
1. The provision in the Cardholder Agreement called “Arbitration” will not apply to your Account
2. Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In
general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an Annual Percentage Rate of 36
percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account).
3. You can call 800-548-5545, select option 1, to hear the information in item 2 (above) and a description of the payment obligation for your Account.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, write to us at: HC Processing Center, P.O. Box 708970, Sandy, UT 84070.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong. You must
notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have to
pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
1. If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
2. If we do not believe there was a mistake: You must pay the amount in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when the matter has been settled between us. If we do not follow all the rules
above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining amount due on the purchase. To use this right, all the following must be
true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
3. You must not yet have fully paid for the purchase. If all the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at: HC Processing Center, P.O. Box 708970, Sandy, UT 84070. While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

Page 7 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

Dent-A-Med, Inc. Privacy Policy
June 2017
FACTS
Why?

What?

WHAT DOES DENT-A-MED, INC. d/b/a HC PROCESSING CENTER (“HC PROCESSING”) DO WITH
YOUR PERSONAL INFORMATION?
Financial companies choose how they share your personal information. Federal law gives consumers the
right to limit some but not all sharing. Federal law also requires us to tell you how we collect, share, and
protect your personal information. Please read this notice carefully to understand what we do.
The types of personal information we collect and share depend on the product or service you have
with us. This information can include:
- Social Security Number and income.
- Account balances and payment.
- Credit history and credit scores.
When you are no longer our customer, we continue to share your information as described in this
notice.

How?

All financial companies need to share customers’ personal information to run their everyday business. In
the section below, we list the reasons financial companies can share their customers’ personal
information; the reasons HC Processing Center chooses to share; and whether you can limit this sharing.

Reasons we can share your personal information

Does HC Processing share?

Can you limit this sharing?

For our everyday business purposessuch as to process your transactions, maintain your account(s),
respond to court orders and legal investigations, or report to credit
bureaus.

Yes

No

For our marketing purposesto offer our products and services to you.

Yes

No

For joint marketing with other financial companies

No

We don’t share

For our affiliates’ everyday business purposesinformation about your transactions and experiences.

Yes

No

For our affiliates’ everyday business purposesinformation about your creditworthiness.

Yes

Yes

For our affiliates to market to you

Yes

Yes

For nonaffiliates to market to you

No

We don’t share

To limit our sharing

Call 1-877-486-3442. Please note: If you are a new customer, we can begin sharing your information
30 days from the date we sent this notice. When you are no longer our customer, we continue to share
your information as described in this notice. However, you can contact us at any time to limit our
sharing.

Questions?

Call 1-877-486-3442

Page 8 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

Privacy Policy Continued
Who we are
Who is providing this notice?

HC Processing Center.

What we do
How does HC Processing protect my personal information?

How does HC Processing collect my personal information?

Why can’t I limit all sharing?

To protect your personal information from unauthorized access
and use, we use security measures that comply with federal law.
These measures include computer safeguards and secured files
and buildings.
We collect your personal information, for example, when you:
-Apply for a loan or open an account.
-Give us your contact information or pay your bills.
-Use your credit card.
We also collect your personal information from others, such as
credit bureaus, affiliates, or other companies.
Federal law gives you the right to limit only
-Sharing for affiliates’ everyday business purposes – information
about your creditworthiness.
-Affiliates from using your information to market to you.
-Sharing for nonaffiliates to market to you.
State laws and individual companies may give you additional
rights to limit sharing. See below for more on your rights under
state law.

Definitions

Affiliates

Nonaffiliates

Joint Marketing

Companies related by common ownership or control. They can
be financial and nonfinancial companies.
-Our affiliates include Aaron’s, Inc. and its subsidiaries, including
Prog Leasing, LLC.
Companies not related by common ownership or control. They
can be financial and nonfinancial companies.
-HC Processing does not share with nonaffiliates so they can
market to you.
A formal agreement between nonaffiliated financial companies
that together market financial products or services to you.
- HC Processing does not jointly market.

Other Important Information
For Vermont Residents: We will not share information we collect about you with nonaffiliated third parties, except as permitted by
Vermont law, such as to process your transactions or to maintain your account. In addition, we will not share information about your
creditworthiness with our affiliates except with your authorization.
For California Residents: We will not share information we collect about you with nonaffiliated third parties, except as permitted by
California law, such as to process your transactions or to maintain your account.
For All Customers: For our everyday business purposes, we may share your personal information with the merchants and
providers where you use your Account and their related companies. You cannot limit this sharing.

Page 9 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

First Electronic Bank Privacy Policy Rev. June 2013

FACTS

WHAT DOES FIRST ELECTRONIC BANK DO
WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your
personal information. Federal law gives
consumers the right to limit some but not all
sharing. Federal law also requires us to tell you
how we collect, share, and protect your personal
information. Please read this notice carefully to
understand what we do.

What?

The types of personal information we collect and
share depend on the product or service you have
with us. The information can include:
▪ Social Security number and income
▪ account balances and payment history
▪ credit history and credit scores
When you are no longer our customer, we
continue to share your information as described
in this notice.

How?

All financial companies need to share customers'
personal information to run their everyday
business. In the section below, we list the
reasons financial companies can share their
customers' personal information; the reasons
First Electronic Bank chooses to share; and
whether you can limit this sharing.
Does
First
Electronic
Bank
share?

Can you limit this
sharing?

For our everyday business purposes - such as to process your
transactions, maintain your account(s), respond to orders and legal
investigations, or report to credit bureaus

Yes

No

For our marketing purposes - to offer our products and services to
you

Yes

No

For joint marketing with other financial companies

No

We do not share

For our affiliates' everyday business purposes - information
about your transactions and experiences

Yes

No

For our affiliates' everyday business purposes - information
about your creditworthiness

No

We do not share

For our affiliates to market to you

No

We do not share

For nonaffiliates to market to you

No

We do not share

Reasons we can share your personal information

Questions?
Page 10 of 11

Call 1-866-322-8008
Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

Privacy Policy Continued
Who we are
Who is providing this notice?

First Electronic Bank

What we do
How does First Electronic Bank protect my personal
information?

How does First Electronic Bank collect my personal
information?

Why can't I limit all sharing?

To protect your personal information from
unauthorized access and use, we use
security measures that comply with federal
law. These measures include computer
safeguards and secured files and buildings.
We collect your personal information, for
example, when you:
▪ apply for a loan or open an account
▪ give us your contact information or pay your
bills
▪ use your credit card
We also collect your personal information
from others, such as credit bureaus, affiliates
or other companies.
Federal law gives you the right to limit only
▪ sharing for affiliates' everyday business
purposes- information about your
creditworthiness
▪ affiliates from using your information to
market to you
▪ sharing for nonaffiliates to market to you
State laws and individual companies may
give you additional rights to limit sharing. See
below for more on your rights under state law.

Definitions

Affiliates

Nonaffiliates

Joint marketing

Companies related by common ownership or
control. They can be financial and
nonfinancial companies.
▪ Our affiliates include nonfinancial
companies such as Fry's Electronics, Inc.
Companies not related by common
ownership or control. They can be financial
and nonfinancial companies.
▪ First Electronic Bank does not share with
nonaffiliates so they can market to you.
A formal agreement between nonaffiliated
financial companies that together market
financial products or services to you.
▪ First Electronic Bank does not jointly
market.

Other important information
For California Customers: We will limit our sharing of personal information about you with our affiliates to comply
with all California privacy laws that apply to us.

Page 11 of 11

Form #350BVSFBE3 valid from 01.31.2019 to 07.31.2019

